     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203


March 2, 2011

Report Number: A-01-10-00521

Tessa L. Lucey
Director of Compliance/Privacy Officer
South Shore Hospital
55 Fogg Road
Weymouth, MA 02190-2455

Dear Ms. Lucey:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of South Shore Hospital for
Calendar Years 2008 and 2009. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kimberly Rapoza, Audit Manager, at (617) 565-2695 or through email at
Kimberly.Rapoza@oig.hhs.gov. Please refer to report number A-01-10-00521 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Tessa L. Lucey

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




     MEDICARE COMPLIANCE
           REVIEW OF
     SOUTH SHORE HOSPITAL
      FOR CALENDAR YEARS
         2008 AND 2009




                      Daniel R. Levinson
                       Inspector General

                         March 2011
                        A-01-10-00521
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. The OPPS was effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the ambulatory payment classification (APC) group to
which the service is assigned.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. For purposes of this report, we refer to these areas at risk for incorrect
billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

South Shore Hospital (the Hospital) is a 318-bed acute care hospital located in South Weymouth,
Massachusetts. The Hospital was paid approximately $163 million for 18,773 inpatient and
126,078 outpatient claims for services provided to Medicare beneficiaries during calendar years
(CY) 2008 and 2009 based on CMS’s National Claims History data.

Our audit covered $1,891,118 in Medicare payments to the Hospital for 87 inpatient and 302
outpatient claims that we identified as potentially at risk for billing errors. These 389 claims had
dates of service in CYs 2008 and 2009.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital did not fully comply with Medicare billing requirements for selected inpatient and
outpatient claims. Specifically, of 389 sampled claims, 249 claims had billing or coding errors,
resulting in overpayments totaling $341,033 for CYs 2008 and 2009. These overpayments
occurred primarily because the Hospital did not have adequate controls to prevent incorrect
billing and coding of Medicare claims and did not fully understand the Medicare billing
requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $341,033, consisting of $167,894 in overpayments for
       the 35 incorrectly billed inpatient claims and $173,139 in overpayments for the 214
       incorrectly billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

SOUTH SHORE HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that it has implemented stronger internal controls and will continue to monitor the
audited areas. Furthermore, the Hospital stated that it has begun the process of refunding the
overpayments to the Medicare contractor.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         South Shore Hospital .....................................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Inpatient Same-Day Discharges and Readmissions .......................................................5
          Inpatient One-Day Stays ................................................................................................6
          Inpatient Claims Paid in Excess of Charges ..................................................................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
          Outpatient Surgeries Billed With Units Greater Than One ...........................................7
          Outpatient Claims Billed During Diagnosis-Related Group Payment Windows ..........7
          Outpatient Claims Paid in Excess of Charges................................................................7
          Outpatient Services Billed During Skilled Nursing Facility Stays ................................8
          Outpatient Manufacturer Credits for Medical Devices ..................................................8

      RECOMMENDATIONS ......................................................................................................9

      SOUTH SHORE HOSPITAL COMMENTS………………………………….…………...9

APPENDIX

       SOUTH SHORE HOSPITAL COMMENTS




                                                                     iii
                                               INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients who have been discharged from the
hospital. Medicare Part B provides supplementary medical insurance for medical and other
health services, including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the prospective payment system (PPS) for inpatient
hospital services. Under the PPS, CMS pays hospital costs at predetermined rates for patient
discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS was effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the ambulatory payment classification (APC) group to
which the service is assigned. CMS uses Healthcare Common Procedure Coding System
(HCPCS) codes and descriptors to identify and group the services within each APC group. 3 All
services and items within an APC group are comparable clinically and require comparable
resources.



1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
Medicare administrative contractor, whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.
3
    HCPCS codes are used throughout the health care industry to standardize coding for medical procedures.


                                                          1
Hospital Payments At Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for claims billed for:

    •   inpatient same-day discharges and readmissions,
    •   inpatient one-day stays,
    •   inpatient claims paid in excess of charges,
    •   outpatient surgeries billed with units greater than one,
    •   outpatient claims billed during diagnosis-related group payment windows,
    •   outpatient claims paid in excess of charges,
    •   outpatient services billed during skilled nursing facility stays, and
    •   outpatient manufacturer credits for medical devices.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. In addition, pursuant to section
1862(a)(1)(A) of the Act, no Medicare payment may be made for items or services that are not
reasonable and necessary for diagnosing or treating illness or injury or for improving the
functioning of a malformed body member.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the
intermediary (Medicare contractor) sufficient information to determine whether payment is due
and the amount of payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.
Chapter 3, section 10, of the Manual states that the hospital may bill only for services provided.
In addition, chapter 23, section 20.3, of the Manual states: “Providers must use HCPCS codes …
for most outpatient services.”

South Shore Hospital

South Shore Hospital (the Hospital) is a 318-bed acute care hospital located in South Weymouth,
Massachusetts. The Hospital was paid approximately $163 million for 18,773 inpatient and
126,078 outpatient claims for services provided to Medicare beneficiaries during calendar years
(CY) 2008 and 2009 based on CMS’s National Claims History data.


                                                   2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $1,891,118 in Medicare payments to the Hospital for 87 inpatient and 302
outpatient claims that we identified as potentially at risk for billing errors. These 389 claims had
dates of service in CYs 2008 and 2009.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals.

Our review was based on selected billing requirements and did not include a focused medical
review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital during August and September 2010.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for CYs 2008 and 2009;

   •    used computer matching, data mining, and analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

   •    selected a judgmental sample of 389 claims (87 inpatient and 302 outpatient) for detailed
        review;



                                                 3
   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   discussed the incorrectly billed and/or coded claims with Hospital personnel to determine
       the underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital did not fully comply with Medicare billing requirements for selected inpatient and
outpatient claims. Specifically, of 389 sampled claims, 249 claims had billing or coding errors,
resulting in overpayments totaling $341,033 for CYs 2008 and 2009. These overpayments
occurred primarily because the Hospital did not have adequate controls to prevent incorrect
billing and coding of Medicare claims and did not fully understand the Medicare billing
requirements.

Of 87 sampled inpatient claims, 35 claims had billing or coding errors, resulting in overpayments
totaling $167,894.

   •   For inpatient claims with same-day discharges and readmissions, the Hospital incorrectly
       billed Medicare for same-day readmissions that should have been combined with the
       initial hospital stays in single claims for continuous stays rather than as separate claims
       for separate stays (22 errors totaling $103,085 in overpayments).

   •   For claims with inpatient one-day stays, the Hospital incorrectly billed Medicare for
       patient stays whose medical records had missing or incomplete physician orders (11
       errors totaling $26,159 in overpayments).



                                                4
    •   For inpatient claims paid in excess of charges, the Hospital billed Medicare with
        incorrectly coded DRGs (2 errors totaling $38,649 in overpayments).

Of 302 sampled outpatient claims, 214 claims had billing or coding errors, resulting in
overpayments totaling $173,139 (six claims had two types of errors).

    •   For claims involving outpatient surgeries billed with units greater than one, the Hospital
        submitted claims to Medicare with incorrect numbers of surgical units of service
        performed (165 errors totaling $129,115 in overpayments).

    •   For outpatient claims billed during DRG payment windows, 4 the Hospital incorrectly
        billed Medicare Part B for outpatient services provided during inpatient stays, services
        that should have been included on the Hospital’s inpatient (Part A) bills to Medicare (29
        errors totaling $8,061 in overpayments).

    •   For outpatient claims paid in excess of charges, the Hospital submitted claims to
        Medicare with incorrect HCPCS codes (6 errors), incorrect HCPCS codes and units of
        service (6 errors), and missing medical record documentation (1 error), (13 errors totaling
        $7,803 in overpayments).

    •   For outpatient services billed during skilled nursing facility (SNF) stays, the Hospital
        incorrectly billed Medicare Part B rather than the appropriate SNFs for services that were
        subject to the consolidated billing provisions of the Act and that had been included in the
        Medicare Part A prospective payments to the SNFs (5 errors totaling $800 in
        overpayments).

    •   For claims involving outpatient manufacturer credits for medical devices, the Hospital
        incorrectly billed Medicare for medical devices when credits should have been obtained
        from the manufacturer (2 errors totaling $27,360 in overpayments).

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 35 of 87 sampled inpatient claims that we reviewed.
These errors resulted in overpayments totaling $167,894.

Inpatient Same-Day Discharges and Readmissions

The Manual, chapter 3, section 40.2.5, states:

        When a patient is discharged from an acute care Prospective Payment System
        (PPS) hospital, and is readmitted to the same acute care PPS hospital on the same
        day for symptoms related to, or for evaluation and management of, the prior


4
 The DRG payment window includes the date of a beneficiary’s inpatient admission and the three calendar days
immediately preceding that inpatient admission.


                                                       5
       stay’s medical condition, hospitals shall adjust the original claim generated by the
       original stay by combining the original and subsequent stay onto a single claim.

For 22 out of 30 sampled claims, the Hospital incorrectly billed Medicare for same-day
readmissions that should have been combined with the initial hospital stays in single claims for
continuous stays rather than as separate claims for separate stays. In each of these instances, the
original claim and the claim(s) involving subsequent readmission were related to the same
medical condition(s) and thus should have been billed as continuous stays. However, in each of
these cases, the Hospital did not adjust the original claim by combining the original and
subsequent stays onto a single claim. The Hospital stated that it relied on the beneficiaries’
admitting physicians to determine the relationship between the original stay and the subsequent
readmission and did not have an additional level of review in place to determine whether the
stays were related. As a result of these errors, the Hospital received overpayments totaling
$103,085.

Inpatient One-Day Stays

Section 1814(a)(3) of the Act states that payment for services furnished to an individual may be
made only to providers of services which are eligible and only if “… with respect to inpatient
hospital services, which are furnished over a period of time, a physician certifies that such
services are required to be given on an inpatient basis for such individual’s medical treatment.”

For 11 out of 28 sampled claims, the medical records did not contain a valid physician order to
admit the beneficiary to a hospital for inpatient care. The Hospital stated that these errors
occurred because it did not have a process in place to review medical records to determine
whether the physician completed an order to admit the beneficiary to inpatient care. As a result
of these errors, the Hospital received overpayments totaling $26,159.

Inpatient Claims Paid in Excess of Charges

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items or
services that are not reasonable and necessary for diagnosing or treating illness or injury or for
improving the functioning of a malformed body member. In addition, the Manual, chapter 3,
section 10, states that the hospital may bill only for services provided, and chapter 1, section
80.3.2.2, requires that claims be completed accurately to be processed correctly and promptly.

For 2 out of 29 sampled claims, the Hospital billed Medicare with incorrectly coded DRGs. The
Hospital stated that the errors occurred due to a combination of clerical errors and
communication errors between members of the Hospital’s coding team. As a result of these
errors, the Hospital received overpayments totaling $38,649.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 214 of 302 sampled outpatient claims that we
reviewed. These errors resulted in overpayments totaling $173,139 (six claims had two types of
errors).



                                                 6
Outpatient Surgeries Billed With Units Greater Than One

The Manual, chapter 1, section 80.3.2.2, states: “In order to be processed correctly and
promptly, a bill must be completed accurately.” In addition, chapter 4, section 20.4, of the
Manual states: “The definition of service units … is the number of times the service or
procedure being reported was performed.”

For 165 out of 199 sampled claims, the Hospital submitted claims to Medicare with incorrect
numbers of surgical units of service performed. Rather than billing based upon the appropriate
number of times (generally one) that the procedure was performed, the Hospital billed Medicare
based upon the time it took to perform the procedure. These procedures, primarily carpal tunnel
and knee arthroscopy, should have been billed as one surgical unit rather than as multiple units.
These errors occurred because the Hospital’s computer software was programmed incorrectly.
Specifically, a billing software upgrade had removed an edit for surgical codes billed with
multiple units of service. As a result of these errors, the Hospital received overpayments totaling
$129,115.

Outpatient Claims Billed During Diagnosis-Related Group Payment Windows

The Manual, chapter 3, section 10.4, states that certain items and nonphysician services
furnished to inpatients are covered under Part A and consequently are covered by the inpatient
prospective payment rate. These services include laboratory services and transportation,
including transportation by ambulance, to and from another hospital or freestanding facility to
receive specialized diagnostic or therapeutic services not available at the facility where the
patient is an inpatient.

For 29 out of 54 sampled claims, the Hospital incorrectly billed Medicare Part B for outpatient
services provided during inpatient stays that should have been included on the Hospital’s
inpatient (Part A) bills to Medicare. Most of the claims billed in error were for ambulance
services. In each of these cases, the Medicare program paid twice for the same service: once as
part of the DRG payment (under Part A) and again under Part B. The Hospital attributed these
overpayments to inadequate review and followup procedures in its quality assurance system and
to insufficient training of staff responsible for coding ambulance services. As a result of these
errors, the Hospital received overpayments totaling $8,061.

Outpatient Claims Paid in Excess of Charges

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” In addition, chapter 4, section 20.4, of the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed.”

For 13 out of 28 sampled claims, the Hospital submitted claims to Medicare with incorrect
HCPCS codes (6 errors), incorrect HCPCS codes and incorrect units of service (6 errors), and



                                                 7
missing medical record documentation to support the procedure performed (1 error). The
Hospital stated that these overpayments occurred because the Hospital’s coding staff
misunderstood the Medicare coding requirements. The Hospital added that a billing software
upgrade had removed a computerized edit for surgical codes billed with multiple service units.
As a result of these errors, the Hospital received overpayments totaling $7,803.

Outpatient Services Billed During Skilled Nursing Facility Stays

Under the consolidated billing provisions of sections 1862(a)(18) and 1842(b)(6)(E) of the Act,
SNFs are responsible for billing Medicare for most services, including outpatient hospital
services, provided to a SNF resident during a Part A covered stay. Pursuant to the interim final
rule implementing the SNF consolidated billing requirement, 5 outside suppliers, including
outpatient hospitals, must bill according to the consolidated billing provisions for services
furnished to SNF residents and must be paid by the SNF rather than by Medicare Part B.

For 5 out of 15 sampled claims, the Hospital incorrectly billed Medicare Part B rather than the
appropriate SNFs for services that were subject to the consolidated billing provisions of the Act
and that had been included in the Medicare Part A prospective payments to the SNFs. In each of
these cases, the Medicare program paid twice for the same service: once to the SNF through the
Part A prospective payment and again to the Hospital through Part B. These overpayments
occurred because the Hospital relied on the Common Working File edits to determine whether
beneficiaries were in SNF stays covered under Part A and did not attempt to identify the
beneficiaries’ SNF resident status at the time of Hospital registration. As a result of these errors,
the Hospital received overpayments totaling $800.

Outpatient Manufacturer Credits for Medical Devices

Federal regulations (42 CFR § 413.9) state: “All payments to providers of services must be
based on the reasonable cost of services.…” The CMS Provider Reimbursement Manual (PRM),
part I, section 2102.1, states, “Implicit in the intention that actual costs be paid to the extent they
are reasonable is the expectation that the provider seeks to minimize its costs and that its actual
costs do not exceed what a prudent and cost conscious buyer pays for a given item or service.”
Section 2103 of the PRM further defines prudent buyer principles and states that Medicare
providers are expected to pursue free replacements or reduced charges under warranties. Section
2103(C)(4) of the PRM provides the following example:

           Provider B purchases cardiac pacemakers or their components for use in replacing
           malfunctioning or obsolete equipment, without asking the supplier/manufacturer
           for full or partial credits available under the terms of the warranty covering the
           replaced equipment. The credits or payments that could have been obtained must
           be reflected as a reduction of the cost of the equipment.

For two out of six sampled claims, the Hospital incorrectly billed Medicare for medical devices
when credits should have been obtained from the manufacturer. Specifically, the Hospital did
not fully comply with Medicare requirements for obtaining credits available from manufacturers
5
    63 Fed. Reg. 26252, 26300 (May 12, 1998).


                                                   8
and for reporting the appropriate modifier and charges to reflect the credits received. For these
claims, the replacements were due to battery depletion within three years of implantation; credits
were available from the manufacturer and reportable. However, the Hospital did not obtain the
credits that were available under the terms of the manufacturer’s warranty. These overpayments
occurred because the Hospital did not have controls to obtain credits available under the terms of
the manufacturer’s warranties or to report the appropriate modifiers and charges to reflect credits
received from manufacturers. Additionally, the Hospital did not have procedures for
coordinating functions among various departments (i.e., accounts payable, patient accounts, and
Medicare billing) to ensure that it submitted claims correctly. As a result of these errors, the
hospital received overpayments totaling $27,360.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $341,033, consisting of $167,894 in overpayments for
       the 35 incorrectly billed inpatient claims and $173,139 in overpayments for the 214
       incorrectly billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

SOUTH SHORE HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations. The
Hospital stated that it has implemented stronger internal controls and will continue to monitor the
audited areas. Furthermore, the Hospital stated that it has begun the process of refunding the
overpayments to the Medicare contractor.




                                                 9
APPENDIX 

                           APPENDIX: SOUTH SHORE HOSPITAL COMMENTS                                                   Page 1 of2


H     South Shore
       Hospital
                                                                                          55 Fogg Road
                                                                                          South Weymouth
                                                                                          Massachusetts
                                                                                          02190-2455
                                                                                          southshorehospital. org
                                                                                                                              (781 ) 340-8000




    February 22, 2011


    Michael J. Armstrong 

    Regional Inspector General for Audit Services 

    Department of Health & Human Services .          .         .

    Office of Inspector General, Office of AudIt ServIces, RegIOn 1 

    John F. Kennedy Federal Building, Room 2425 

    Boston, MA 02203 


    Report #A-Ol-1O-00521


    Dear Mr. Armstrong:
           South Shore Hospital (SSH) is in receipt of the draft report provided by the Department
    of Health & Human Services, Office of Inspector General entitled, "Medicare Compliance
    review of South Shore Hospital For Calendar Years 2008 and 2009 ". SSH has had an
    opportunity to review your report and we generally agree with the findings outlined therein.

            As the report indicates, DIG originally selected for review certain inpatient and outpatient
    claims submitted by SSH for dates of service between January 1, 2008 through December 3],
    2009, covering eight (8) audit areas. More particularly, it is our understanding that this type of
    audit, covering multiple areas at one time based on OIG ' s identification of issues in reviews at
    other hospitals, is the first of its kind. In all, 87 inpatient claims and 302 outpatient claims were
    reviewed and, as set forth in your findings, the audit identified 35 inpatient and 214 outpatient
    claims errors.

           As you are aware, prior to this audit, SSH conducted regular audits on the DRG coding
    performed by both its intemal staff and by SSH contracted experts. SSH continues to conduct
    such audits and expects to in the future. Additionally, SSH has provided, and continues to
    provide, quarterly coder training updates using a SSH contracted expert. All of our coders are
    credentialed annually ill either CCS, RHIA or RHIT. All three designations require annual
    CEUs. SSH will conti ue to require this training and credentialing.

            Notably, the vast majority of the outpatient claims errors you identified were attributed to
    a software upgrade error that dropped edits which should have prevented certain surgical codes
    from being billed with units greater than one. These errors were corrected in a subsequent
    software update and SSH has implemented additional intemal controls to verify that edits are not
    lost as a result of future software or systems upgrades.




    Not-for-profit, charitable, tax-exempt provider of acute, outpatient, home health, and hospice care to Southeastern Massachusetts
                                                                                        Page 2 of2



         In addition, for five out of the 214 outpatient claims audited, the common working file
 edits did not identify outpatient services billed during patient SNF stays as being covered under
 consolidated billing. SSH no longer relies on common working file edits to assess whether or
 not outpatient services provided to SNF patients are eligible for separate reimbursement.

         With respect to the outpatient manufacturer credits for medical devices, SSH historically
 relied on device vendors to determine appropriate warranty payments due to the hospital. With
 respect to the six claims reviewed, it was agreed that in two instances, there was a failure to
 identify devices that should have been covered under warranty. SSH did not receive nor has it
 since received credits froin the manufacturer fot those two devices. In response to this audit,
 SSH has established enhanced internal controls which includes a review by SSH staff to
 determine the availability of a warranty in cases where SSH perfornled the procedure for both
 the original device and the replacement device. SSH has met with vendor representatives and
 reviewed the internal controls. Among other things. vendors are required to notify SSH prior to
 the procedure that the device may be covered under warranty. In addition, for cases where SSH
 provides both the initial implant and the replacement, SSH is tracking dates of service and will
 be able to contact the vendor directly for any replacements that are within the manufacturer's
 warranty period.

       orG has recommended that SSH refund to the Medicare contractor $341,033, consisting
of $167,894 in overpayments for the 35 incorrectly billed inpatient claims and $173 ,139 in
overpayments for the 214 incorrectly billed outpatient claims.      Furthermore, OIG has
recommended that SSH strengthen its controls to ensure full compliance with Medicare
requirements.

        SSH has processed the OrG's recommended refunds and, to the extent permitted by
Medicare rules, has begwl rebilling claims as appropriate. In addition, SSH has implemented
stronger internal controls aimed at reducing the risk of these types of errors from occurring in the
future. SSH will continue to monitor all of the audited areas and will update its controls as
necessary.

       SSH takes its compliance obligations very seriously. Please feel free to caJl me if you
have any questions about the Hospital' s efforts in this regard or if you require additional
information. I can be reached directly at (781) 624-8828.




Tessa L. Lucey,    C
Director of Compliance/Privacy Officer
